Audit Report 99-02
U.S. Department of Justice
Office of the Inspector General
Audit Division
Federal Bureau of Investigation
Management Letter Report
Fiscal Year 1996
99-02
February 1999
* * * * *
TABLE OF CONTENTS
COMMENTARY AND SUMMARY
MANAGEMENT LETTER
CASH DISBURSEMENTS/SIBAC INVOICING
REVIEW/APPROVAL OF CASH RECEIPTS
CASH RECEIPTS
EMERGENCY FUNDS
ACCOUNTS PAYABLE
PERSONNEL
PROPERTY MANAGEMENT SYSTEM
APPENDIX I - FEDERAL BUREAU OF INVESTIGATION'S RESPONSE TO THE
AUDIT RECOMMENDATIONS
APPENDIX II - AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS
NECESSARY TO CLOSE THE REPORT
COMMENTARY AND SUMMARY
The Federal Bureau of Investigation (FBI) is the principal investigative arm of the
Department of Justice. It is charged with gathering and reporting facts, locating
witnesses, and compiling evidence in criminal and civil matters in which the Federal
Government is, or may be, an interested party. It also investigates violations of federal
law in the criminal, civil, and intelligence fields, except those that have been assigned
by legislative enactment or otherwise to another Federal agency. To achieve their mission,
the FBI received $2.5 billion in direct appropriations for Fiscal Year (FY) 1996. In
addition, reimbursable funding levels totaling about $393 million, provided the FBI with
resources to participate in several joint-agency efforts, including Organized Crime Drug
Enforcement Task Force, Regional Drug Intelligence Squads, and the Asset Forfeiture
Program.
The Office of the Inspector General (OIG) contracted with KPMG Peat Marwick LLP,
Certified Public Accountants, to perform the FY 1996 audit of the Federal Bureau of
Investigation Statement of Financial Position as part of the Department of Justices
(DOJ) effort to implement the Government Management Reform Act of 1994 (GMRA). The GMRA
requires an annual financial statement audit of the DOJ beginning with FY 1996. The audit
was conducted in accordance with generally accepted government auditing standards and the
Office of Management and Budget Bulletin No. 93-06, Audit Requirements for Federal
Financial Statements. The OIG performs an oversight role in the audit process and
ensures compliance with the GMRA by monitoring the progress of the audit, reviewing
supporting workpapers, coordinating the issuance of reports, and following up on findings
and management letter issues.
The management letter was prepared by KPMG Peat Marwick as part of their audit of the
FBIs FY 1996 financial statement. The auditors were not contracted to perform
control testing sufficient to enable them to express an opinion on managements
assertions over the effectiveness of internal controls or compliance with laws and
regulations. Accordingly, they did not express such an opinion. However, they noted
certain conditions involving the internal control structure and its operations. The
management letter presents those internal control weaknesses that, in the independent
auditors opinion, do not have a material effect on the financial statements, but are
areas of the management process that could, in some way, affect the organizations
ability to record, process, summarize, and report financial data.
KPMG Peat Marwick, LLP noted conditions in the following areas: (1) cash disbursements,
(2) cash receipts, (3) emergency funds, (4) accounts payable, (5) personnel record
keeping, and (6) FBIs property management system.
KPMG Peat Marwick also reviewed managements process for evaluating and reporting
on internal controls and accounting systems as required by the Federal Managers
Financial Integrity Act (FMFIA), and compared the agencys most recent FMFIA reports
with the evaluation they conducted of the FBIs internal controls. Their findings and
recommendations in this area are addressed separately.
Federal Bureau of Investigation
September 30, 1996
Management Letter Comment No. 1
Audit Area:
Cash Disbursements/SIBAC Invoicing
Condition:
General Services Administration (GSA) invoices for the FBIs purchase
of routine supplies are often received late--sometimes as late as three years after
shipment of the goods. Also, the FBI is not always notified of order cancellations, so it
is not always clear if the FBI is paying GSA invoices after or before the goods
have been received. Failure to notify end users of canceled orders causes delays in
receiving the needed goods and unnecessary reviews of outstanding purchase orders.In
addition, GSA payments cannot be posted to the FBIs Financial Management System
(FMS) until an electronic invoice is recorded in the GSAs Simplified
Intragovernmental Buying and Collections (SIBAC) system, thereby causing FMS to reflect
inaccurate expenditure and payment information, making the reconciliation process
difficult.
Criteria:
To ensure the proper payment of and accounting for goods and services,
invoices must be promptly received, paid, and canceled.
Effect:
Because payments to GSA cannot be posted to FMS until an electronic
invoice is recorded in the SIBAC system, FMS may not accurately report expenditures and
payments for a given time period. Reconciliation of the Treasury balance to FMS may
require extensive follow-up to determine which purchase orders have actually been paid and
should be canceled.Failure to notify end users of canceled orders can cause delays in
receiving needed items. Purchase Orders may remain outstanding for long periods of time
and cause unnecessary follow-up by personnel to determine their status. Also, it is
unclear whether GSA withdraws funds from the FBI account before or after goods are
received. If funds are withdrawn before receipt, it follows that advances or receivables
could be understated on the balance sheet.
Recommendation 1:
We recommend that the FBI work together with the GSA in an effort to
develop a solution that will result in timely and accurate GSA billings that will allow
the FBI to properly account for its GSA purchases and track its outstanding orders.
Federal Bureau of Investigation
September 30, 1996
Management Letter Comment No. 2
Audit Area:
Review/Approval of Cash Receipts
Condition:
During our cash receipts testwork, we noted that the General Ledger
Units (GLU) Schedules of Collections did not contain evidence of supervisory review
and approval.
Criteria:
Standard internal control procedures include an independent check
performed by someone other than the person who originally carried out an action. Also, OMB
Circular A-123, Management Accountability and Control, requires that the
documentation for transactions, management controls, and other significant events be clear
and readily available for examination.
Cause:
FBI management indicated that Schedules of Collections are being reviewed
and approved, as evidenced by supervisory signatures, however, because the schedules are
microfilmed prior to such reviews, the signatures do not appear on the microfilm copy.
Effect:
Insufficient reviews and documentation of supervisory approval decrease
the level of management control over cash receipts. Also, by microfilming the deposit
tracking packets prior to approval, the microfilm may reflect incorrect information
detected as part of the review/approval process.
Recommendation 2:
We recommend that the GLU revise its procedures by microfilming cash
receipt deposit tracking packets after the supervisory review and approval takes place so
that evidence of such review is documented on the microfilm copy.
Federal Bureau of Investigation
September 30, 1996
Management Letter Comment No. 3
Audit Area:
Cash Receipts
Condition:
Monies advanced to fund confidential activities may be
returned for various reasons to the Treasury via electronic funds transfer (EFT). For one
item of seventy-eight cash receipts sampled, there was a delay of four months from the
time the wire transfer was received to the time the entry was recorded in the general
ledger.
Criteria:
OMB Circular No A-123, Management Accountability and
Control, requires that transactions be promptly recorded, properly classified, and
accounted for in order to prepare timely accounts and reliable financial and other
reports.
Cause:
The General Ledger Unit (GLU) forwards notification of wire
transfers to Confidential Services to research and enter the accounts (case advances) to
apply the wire transfers to. The delay occurs during the time Confidential Services takes
to research and enter the appropriate transaction to liquidate the related advance before
forwarding the accounting information back to the GLU for posting.
Effect:
Wire transfers that are received at the end of the fiscal
year are not recorded in the related general ledger accounts until the following year.
Recommendation 3:
We recommend that Confidential Services and GLU review their
current procedures for processing wire transfers and consider implementing new procedures
that will increase the timeliness of recording the wire transfers.
Federal Bureau of Investigation
September 30, 1996
Management Letter Comment No. 4
Audit Area:
Emergency Funds
Condition:
Advances made to agents from the Emergency Petty Cash fund at the
FBIs New York field office were not liquidated within the required 10 day period.
(Advances totaling $7,050 were still outstanding after thirty days from the date of the
surprise cash count performed during the audit.)
Criteria:
Confidential Funding Guide, Section 6.3.3.1, requires that advances
to Agents from the petty cash fund, for the purpose of paying confidential expenditures,
be liquidated or returned within 10 working days from the date of the advance.
Cause:
The FBI is not monitoring compliance with its Confidential Funding
Guide requirement for prompt liquidation of emergency fund advances.
Effect:
Failure to comply with the 10-day liquidation requirement suggests that
use of emergency funds may not be being restricted for the established purpose intended by
the Bureau (i.e., emergency cash shortages) and increases the opportunity for
inappropriate use. Such practice may also drain the emergency fund, thereby leaving
insufficient funding for true emergency needs.
Recommendation 4:
We recommend that the FBI ensure compliance with its policy for prompt
liquidation of all advances-emergency or other advances-by designating to the fund cashier
the responsibility for following-up on delinquent advances.
Federal Bureau of Investigation
September 30, 1996
Management Letter Comment No. 5
Audit Area:
Accounts Payable
Condition:
Third-party drafts are drawn on a zero balance account held
at Mellon Bank. For every draft that is issued, the FBI must wire the amount of the draft
to Mellon Bank for payment. When a third-party draft is issued, a liability to Mellon Bank
is created in the general ledger. During our accounts payable testwork, we noted that
detail documentation for the 9/30/96 balance reflected in the general ledger and the
financial statements for account no. 2120.20 (Accounts Payable) was not readily available.
Criteria:
FASAB No. 1, Accounting for Selected Liabilities and
Assets, (Payables) states that liabilities should be accrued for goods and services
received from, progress in contract performance by, and rents due to other entities.
Documentation to support the payables should be maintained and a reconciliation performed
after year end to adjust the accounts to the actual amounts owed.
Cause:
Neither the Commercial Payments Unit or General Ledger Unit
performed year-end reconciliations of the Mellon Bank third-party draft account. The
2120.20 Accounts Payable account balance on the general ledger was extracted from the FMS
system without ensuring that the balance was reconciled to the Mellon Bank balance.
Effect:
The 9/30/96 balance of 2120.20 Accounts Payable was misstated
by a combination of stop payment actions and other cancellations not reflected on the FMS
system and incomplete transmission of wires received at Mellon Bank.
Recommendation 5:
We recommend that the Commercial Payments Unit perform a
year-end reconciliation of the Mellon Bank third-party draft account and the results of
the reconciliation be communicated to the General Ledger Unit, so that they may carry the
reconciled balance on the general ledger and financial statements at year end.
Federal Bureau of Investigation
September 30, 1996
Management Letter Comment No. 6
Audit Area:
Personnel
Condition:
FBI personnel could not locate two of seventy-nine personnel
files requested for review during the audit. We also observed that the personnel files
were not maintained in an orderly fashion.
Criteria:
OMB Circular No. A-123, Management Accountability and
Control, requires that documentation for transactions, management controls, and other
significant events must be clear and readily available for examination.
Cause:
Lack of controls, or enforcement of controls, over
maintenance of personnel records.
Effect:
The supporting documentation for personnel file information
is not being maintained in a manner which best meets the recordkeeping and processing
needs of the Bureau.
Recommendation 6:
We recommend that the Information Resources Division review
the current file maintenance system and consider the steps needed to ensure the proper
maintenance of personnel records (such as instituting a sign-out policy for the removal of
files from the personnel office).
Federal Bureau of Investigation
September 30, 1996
Management Letter Comment No. 7
Audit Area:
Property Management System
Condition:
For assets under $25,000, five of seventy-five personal
property items observed and tested in the field offices did not have Property Management
Application (PMA) numbers affixed to them. Also, seven of the seventy-five items which did
have PMA numbers affixed to them could not be traced to the PMA Master Property Listings
for the related field office.
Criteria:
Justice Property Management Regulation (JPMR), Subpart
128-1.500-6, states that the Director of the FBI is responsible for establishing and
administering a property management program to provide for creation and maintenance of
complete and accurate inventory control and accountability record systems. All assets over
$150 are to be entered in PMA and receive a PMA number, which is to be affixed to the
asset.
Cause:
Other than negligence on the part of field office supply
technicians, there was no apparent cause for not having PMA numbers affixed to the assets.
For assets that could not be traced to the PMA Master Listings, FBI officials may have
failed to enter in PMA the transfer of assets to other field offices.
Effect:
The PMA system does not reflect accurate inventory of all of
the FBIs assets under $25,000, thus the FBI is not in compliance with JPMR
requirements.
Recommendation 7:
We recommend that the FBI reinforce its JPMR policies and
procedures requiring its field offices to maintain a complete and accurate inventory of
all PMA assets, including affixing PMA numbers to the assets.
APPENDIX I
APPENDIX II
OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
TO CLOSE THE REPORT
Recommendation Number:
Closed. We consider this recommendation closed after reviewing your response.
Closed. We consider this recommendation closed after reviewing your response.
Closed. We consider this recommendation closed after reviewing your response.
Closed. We consider this recommendation closed after reviewing your response.
Closed. We consider this recommendation closed after reviewing your response.
Please note that we will continue to monitor reconciliation efforts during future audits.
Closed. We consider this recommendation closed after reviewing your response.
Closed. We consider this recommendation closed after reviewing your response.
#####